Audit of Raytheon Polar Services Company’s Non-
compliance with Cost Accounting Standard 418 -
Allocation of Direct and Indirect Costs For Fiscal Years
2000 to 2002




                                         March 21, 2006
                                          OIG-06-1-001




                               National Science Foundation
                                Office of Inspector General
                        TABLE OF CONTENTS



TABLE OF CONTENTS         3
ACRONYMS      3
INTRODUCTION                                               4
AUDIT OBJECTIVES          4
BACKGROUND                                                 5
AUDIT RESULTS     6


APPENDIX A – NSF’s RESPONSE      11

APPENDIX B – DEFENSE CONTRACT AUDIT AGENCY AUDIT REPORT 13




ACRONYMS

ASBCA           Armed Services Board of Contract Appeals
CAS   Cost           Accounting Standards
CASB            Cost Accounting Standards Board
CFAO            Cognizant Federal Agency Official
CFR   Code            Federal Regulations
DCAA Defense             Contract Audit Agency
DCMA            Defense Contract Management Agency
FAR   Federal           Acquisition Regulation
FY    Fiscal          Year
ODC Other             Direct Costs
OFPP            Office of Federal Procurement Policy
OMB             Office of Management and Budget
OPP             Office of Polar Programs
RTSC            Raytheon Technical Services Company
RPSC            Raytheon Polar Services Company
USAP United            States Antarctic Program
WBS Work              Breakdown Structure




                                      3
                                   INTRODUCTION


        The attached Defense Contract Au dit Agency (DCAA) Audit Report dated June
23, 2005 details the results of DCAA’s audit       of Raytheon Polar Services Com pany’s
(RPSC) compliance w ith the requirements of Cost A ccounting S tandard (CAS) 418-
Allocation of Direct and Indirect Costs, in relation to costs claimed for payment by RPSC
under NSF Contract No. OPP-0000373 from           January 1, 2000 throug h Decem ber 31,
2002. The contract consists of a five-year base period and fi ve option periods for a total
of ten years and is valued at $1.1 billion.     The charges claim ed against the contrac t
average                             .

        The United States Antarctic Program (USAP) has, since 1971 when NSF assumed
full responsibility for USAP, provided a perm anent presence and overseen U.S. scientific
interests in Antarctica. Today, NSF’s Of fice o f Polar Program s (OPP) ad ministers the
USAP and oversees the operations perform ed under the USAP contract. The principal
goals of the USAP are to (1) understand th e Antarctic region and its ecosystem s, (2)
understand the effects of the region on global     processes such as clim ate, as well as
responses to those effects, and (3) use    the region as a platform to study the upper
atmosphere and space.

        RPSC, located in Centennial, Colorado, is   a part of the Raytheon Technical
Services Company (RTSC) headquartered in Reston, Virginia. RPSC is under contract to
the National Science Foundation to provide science, operations, and maintenance support
to sustain year-round research programs.


                                 AUDIT OBJECTIVES


        The purpose of DCAA’s audit was to eval uate whether RPSC com plied with the
Cost Accounting Standard Board’s (CASB) ru les, regulations, and standards, and any
applicable F ederal Acquisition Regulations (FAR) Part 31 requirem ents. Specific ally,
DCAA’s audit objec tives were to determ ine whether 1) RPSC complied with the
requirements set forth in CAS 418-        Allocation of Direct and Indirect Costs and 2)
RPSC’s wri tten CASB Disclosure Statem ent of accountin g policie s and practices, for
classifying costs as direct or ind irect, was consistently a pplied in a ccordance with the
CASB rules and regulations st ated in 48 CFR Chapter 99, the FAR, and the term s of the
contract between NSF and Raytheon.

        The DCAA audit was conducted in accordan ce with the Com ptroller General’s
Government Audit Standards and included such tests of accounting records and other
audit procedures necessary to fully address the audit objectives.



                                            4
                                        BACKGROUND


        The CAS 418- Allocation of Direct and Indirect Costs , was issued by the CASB.
The original CASB was established in 1970 as an agency of Congress in accordance with
a provision of Public Law 91379. It was autho rized to (1) prom ulgate cost accoun ting
standards designed to achieve uniform      ity and consistency in the cost accounting
principles followed by defense contractors a nd subcontractors under Federal contracts in
excess of $100,000 and (2) establish regulations to require governm ent contractors and
subcontractors, as a con dition of co ntracting, to disclo se in writing its cost accounting
practices, to follow th e disclosed practices consistently and to co mply with duly
promulgated cost accounting standards.

         Specifically, CAS 418-Allocation of Direct and Indirect Costs provides that:

         (1) a business unit shall have a writt en statem ent of accou nting policies
         and practices for classif ying costs as direct or indirect w hich shall be
         consistently applied;

         (2) ind irect costs shall be accum ulated in indirect cost po ols which are
         homogeneous; and

         (3) pooled costs shall be allocated     to cost objectives in reasonable
         proportion to the beneficial or causal relationships of th e pooled costs to
         cost objectives.

        The responsibility for ensuring C AS 418 compliance and resolving all non-
compliance issues rests with the C ognizant Federal Agency Official (CFAO). W ith
respect to RPSC, the CFAO is the Def ense Contract Managem ent Age ncy‘s (DCMA)
Divisional Adm inistrative C ontracting Officer for RTSC. The DCMA CFAO resolves
any non-compliance issues by reviewing RPSC’ s efforts to bring RPSC into com pliance
with the CA S 418 requirem ents and m aking a final determination of compliance or non-
compliance. If RPSC f ails to comply w ith a CAS or to f ollow any cost accoun ting
practice consistently, then according to FAR 52.230-2(a)(5), RPSC is required to agree to
an adju stment of the co ntract p rice plus inte rest when f ailure to com ply with CAS 418
results in any increased costs paid by the United States.1

       The determ ination of non-com pliance will also trigg er the requirem ent for the
Contractor to subm it a general dollar m agnitude cost im pact proposal within 60 days of

1
  FAR 52.230-2(a)(5) states that the contractor shall "Agree to an adjustment of the contract price or cost
allowance, as appropriate, if the Contractor or a subcontractor fails to comply with an applicable Cost
Accounting Standard or to follow any cost accounting practice consistently and such failure results in any
increased costs paid by the United States. Such adjustment shall provide for recovery of the increased
costs to the United States together with interest."

                                                     5
notification by the CFAO in accord ance with FAR 52.230- 6. 2 W hen this proposal is
received, it will be aud ited. The cost impact is subject to negotiation and, if agreem ent
cannot be reached, the C FAO can serve the Contr actor with a notice of intent to disallow
costs. Final resolution, if RPSC and DC MA/NSF do not r each agreem ent, is de cided
before the Armed Services Board of Contract Appeals (ASBCA).

                                          AUDIT RESULTS


        DCAA’s audit found that RPSC did not             comply with CAS 418 and did not
consistently classify costs charged to NSF under the USAP contract as stated in its CASB
Disclosure Statem ent. Specif ically, RPSC did not f ollow its dis closed def initions f or
billing indir ect costs in the claim s subm itted to NSF f or paym ent. Instead, RPSC
classified in direct cos ts as direct co sts of contract perform ance and incorrectly claim ed
them for pa yment. As a result, RPSC incorrectly claim ed                         on the NSF
USAP contract for the period January 1, 2000 through December 31, 2002. 3

        The US Governm ent requires, under         the r ules of the Off ice of Federal
                               4
Procurement Policy’s (OFPP) Cost Accounting Standards Bo ard, that a contracto r of
RPSC’s size disclose detailed definitions of its Overhead and General and Administrative
costs to the governm ent in its Cost Accountin g Standard Board Disclosure Statement.
Upon approval of the disclosed definitions by RPSC’s cognizant federal agency, DCMA,
RPSC agrees to only bill the governm ent for costs accord ing to th e d efinitions in its
CASB Disclosure S tatement. The require ment tha t RPSC com ply with CAS is
incorporated into RPSC’s NSF contra ct by FAR 52.230-2 (CAS Clause) and FAR
52.230-6 (CAS Administration Clause).

        However, in the cos t claim s RPSC submitted to NSF, it did not f ollow its
disclosed definitions for billing indirect costs. Instead, RPSC classifi ed indirect cos ts as
direct costs of contract perform ance and inco rrectly claimed them to NSF f or payment.
In particular, RPSC stated in its
                                                       but nevertheless classified over
         of such costs as direct costs. These misclassified indirect costs included
            for facilities costs, such as the lease costs for RPSC ’s building in Centennial,
Colorado,                  for financial m anagement department costs, and                 for

                           . The DCAA auditors found that these common busi           ness
infrastructure costs clearly benefit and support the overall operations of RPSC and enable
2
  FAR 52.230-6 states that the contractor shall "Submit to the Contracting Officer a description of any cost
accounting practice change, the total potential impact of the change on contracts containing the CAS
clause, and a general dollar magnitude of the change which identifies the potential shift of costs between
CAS-covered contracts by contract type (i.e., firm- fixed- price, incentive, cost-plus-fixed-fee, etc.) and
other contractor business activity …within 60 days of the date the Contractor is notified by the Contracting
Officer of the determination of noncompliance."
3
  Previously reported in OIG Audit Report No. OIG-5-1-005 dated 31 March 2005.
4
  OFPP coordinates efforts to improve Federal procurement law, policies, and practices, which affect all
Federal and federally-assisted purchases of goods, property, and services.

                                                     6
it to carry out its multip le d irect m ission activities (e.g.; ship o         perations, s upply
operations, construction projects) for the USAP program.

        Similarly, the DCAA auditors identified              of
                             costs that were classified a nd charged as a direct General
Management W ork Breakdown Structure (W BS) costs, contrary to RPSC’s CASB
Disclosure Statem ent. According to RPSC ’s CASB Disclosure S tatement def inition,
indirect costs include


                                                                                . However, RPSC
incorrectly classified and ch arged to NSF these                                             and
                                .

        By not clas sifying costs in acco rdance with the definitio ns stated in RPSC’s
CASB Disclosure Statem ent, DCAA es timates that RPSC charged NSF                           of
                                5
questionable contract costs. Thes e are costs that should have been classified as
Overhead or General and Adm inistrative costs and therefore recovered through RPSC’s
indirect cost rate, subject to indirect cost ceilings, rather than charged as direct costs.

         Also, by not com plying with its CASB           Disclosure Statem ent, RPSC is in
violation of CAS 418 and FAR 52.230-2, which re quire R PSC to consistently classify
costs charged to NSF under the USAP contra            ct as stated in its CASB Disclosure
Statement. By not billing NSF in accordan ce with CAS and the FAR, RPSC is now
subject to receive a final determ ination of CAS non-compliance from the DCMA CFAO.
In that instance, RPSC will also be subject to FAR 52.230-2(a)(5), which requires RPSC
to reim burse NSF f or all in creased costs pa id as a resu lt of the CASB Disclo sure
Statement non-com pliance, plus interest and F AR 52.230-6, which requires, RPS C to
submit a cost impact proposal. The DCMA CFAO will resolve the non-compliance issue
by reviewing RPSC’s efforts to bring          itself into compliance with the CAS 418
requirements. A final determ ination of non- compliance with RPSC’s CASB Disclosure
Statement will require that RPSC r eturn to NSF the                    of questionab le con tract
costs plus interest.6

        In its response to the draft of this report, RPSC indicated that it did not agree with
the questioned costs. R PSC contends that these costs were claimed in accordan ce with
instructions received from NSF official s, but RPSC was unable to provide any
documentary support for this contention. Furt her, the DCAA auditors contacted the NSF
Contracting Officer, who stated that no such instructions were provided to RPSC by NSF
authorizing any deviation from RPSC’s standard accoun ting practices as sta ted in its
CASB Disclosure Statement.




5
    First identified in NSF-OIG Audit Report No. OIG-5-1-005, dated March 31, 2005.
6
    DCMA CFAO issued an Initial Noncompliance Letter to RTSC, dated September 28, 2005.

                                                  7
      We recomm end that NSF’s Di         rector of the Division of Acquis       ition and
Cooperative Support:

   Recommendation No. 1 - Coordinate with the DCMA CFAO in pursuing a final
   determination of CAS non-com pliance by RPSC and obtaining a cost im pact
   proposal from RPSC for the period of non-compliance in acco rdance with FAR
   52.230-6.

   NSF’s Response - Agree with the recomm endation in part and disagree with the
   recommendation in par t. This off ice will coord inate any planned activ ities with
   the DCMA CFAO prior to initia ting negotiations with RPS C on this and related
   audit m atters; however, RPSC’s complia nce or non-com pliance with CAS 418
   has not been settled yet. Accordingly, it is premature to assume that a cost impact
   proposal will be req     uired. DCCA anticipates acco        mplishing its initial
   coordinating activities with the DCMA CFAO in early-January 2006, and in any
   event not later than January 31, 2006.

   OIG Comments – NSF’s comments are responsive to the recommendation.


   Recommendation No. 2 - Coordinate with the DC MA CFAO in recovering all
   increased costs plus interest paid by NSF as a result of the non-com pliance in
   accordance with FAR 52.230-2(a)(5 ), whic h should include resolving the
             incorrectly claimed costs identified in OIG Re port No. 05-1-005, Audit
   of Raytheon Polar Services Com pany’s Costs Claim ed for Fiscal Years 2000 to
   2002, dated March 31, 2005.

   NSF’s Response - Agree with the recomm endation in part and disagree with the
   recommendation in pa rt. This o ffice w ill c oordinate all planned r esolution
   activities with the DCMA CFAO prior to in itiating negotiations with RPSC on
   this and related audit m atters; howeve r, RPSC’s com pliance or non-com pliance
   with CAS 418 has not been settled. Accordingly any statement that RPSC has not
   complied with CAS 418 is premature. DCCA anticipates accomplishing its initial
   coordinating activities with the DCMA CFAO in early-January 2006, and in any
   event not later than January 31, 2006.         DCCA anticipates that resolution
   discussions will be f luid and com plex, making establishment of a f irm schedule
   for coordin ation ac tivities im practical; however, coordination with the DCMA
   CFAO will be accom plished, as circum stances require. W e are hopeful that an y
   resolution can be accomplished prior to March 31, 2006, but will not be b ound by
   that date if more time is needed to n egotiate a fair and equitable settlement of the
   audit issues.

   OIG Comments – NSF’s comments are responsive to the recommendation.




                                            8
Recommendation No. 3 - Coordinate with the DCMA CFAO to ensure that RPSC
establishes adequate po licies and p rocedures including a monitoring program to
comply with the requirements of CAS 418-Allocation of Direct and Indirect Costs
and RPSC’s CASB Dis closure Statem ent. The policies and procedures should
institute ad ditional con trol p rocedures and an inte rnal m onitoring pro gram to
ensure th at costs are consistently applie d and/or allocated as either direct or
indirect in accordance w ith RPSC’s disclosed cost accounting practices and the
requirements of CAS 418.

NSF’s Response – Agree with the recomm endation, and we will incorporate it
into our negotiating plan for the upcoming discussions with RPSC.

OIG Comments – NSF’s comments are responsive to the recommendation.


Recommendation No. 4 - W ithhold paym ent for any direct costs that are
incorrectly claimed by RPSC, if RPSC continues its current billing practices.

NSF’s Response –We agree with the essence of the recommendation. Beginning
with the FY 2005 Program Plan, NSF has taken interm ediate action to exclude
proposed indirect cost recoveries in ex cess of the rate caps incorporated in
Contract No. PRSS-0000373 from approved pl an. Final action on indirect cost
recoveries will be tak en in conju nction with resolu tion of the pending audits
following the completion of negotiations with RPSC.

OIG Co mments – Although NSF’s response addre sses proactive steps taken to
prevent RP SC billing NSF f or indirec t co sts in exce ss of the contr act lim ited
indirect rate ceilings, our recommendation also addresses indirect costs that RPSC
incorrectly classifies as direct cos ts. Therefore, the response from NSF does not
alter our recommendations that NSF withhold payments for any indirect costs that
are incorrectly claimed by RPSC as direct costs.




                                         9
     APPENDIX A




10
                                                                                  APPENDIX A


Comments – Draft Report OIG-05-1-009


Recommendation 1 – Agree with the recommendation in part and disagree with the
recommendation in part. This office will coordinate any planned activities with the DCMA
CFAO prior to initiating negotiations with RPSC on this and related audit matters; however,
RPSC’s compliance or non-compliance with CAS 418 has been not yet been settled.
Accordingly, it is premature to assume that a cost impact proposal will be required. DCCA
anticipates accomplishing its initial coordinating activities with the DCMA CFAO in early-
January 2006, and in any event not later than January 31, 2006.

Recommendation 2 – Agree with the recommendation in part and disagree with the
recommendation in part. This office will coordinate all planned resolution activities with the
DCMA CFAO prior to initiating negotiations with RPSC on this and related audit matters;
however, RPSC’s compliance or non-compliance with CAS 418 has been not yet been settled.
Accordingly any statement that RPSC has not complied with CAS 418 is premature. DCCA
anticipates accomplishing its initial coordinating activities with the DCMA CFAO in early-
January 2006, and in any event not later than January 31, 2006. DCCA anticipates that resolution
discussions will be fluid and complex, making establishment of a firm schedule for coordination
activities impractical; however, coordination with the DCMA CFAO will be accomplished, as
circumstances require. We are hopeful that any resolution can be accomplished prior to March
31, 2006, but will not be bound by that date if more time is needed to negotiate a fair and
equitable settlement of the audit issues.

Recommendation 3 – Agree with the recommendation, and we will incorporate it into our
negotiating plan for the upcoming discussions with RPSC. We anticipate completing
development of our negotiating plan not later than February 28, 2006.

Recommendation 4 – We agree with the essence of the recommendation. Beginning with the FY
2005 Program Plan, NSF has taken intermediate action to exclude proposed indirect cost
recoveries in excess of the rate caps incorporated in Contract No. PRSS-0000373 from approved
plan. Final action on indirect cost recoveries will be taken in conjunction with resolution of the
pending audits following the completion of negotiations with RPSC.




                                                11
                                                                 APPENDIX B




              Defense Contract Audit Agency Audit Report

Audit Report No.6161–2005T19200001-Cost Accounting Standard 418-Allocation of
                          Direct and Indirect Costs
                            Dated June 23, 2005


                                Performed By
                        Defense Contract Audit Agency
                           Herndon Branch Office
                              Herndon, Virginia




                                     12
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

        Internet
        www.oig.nsf.gov

        Email Hotline
        oig@nsf.gov

        Telephone
        703-292-9158

        Toll-Free Anonymous Hotline
        1-800-428-2189

        Fax
        703-292-9158

        Mail
        Office of Inspector General
        National Science Foundation
        4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                 13
            DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 6161–2005T19200001

                                                             June 23, 2005

PREPARED FOR: Director
              ATTN: John Raymond (DCMDE-GVOG)
              DCMA - Virginia
              10500 Battleview Parkway, Suite 200
              Manassas, VA 20109-2342

PREPARED BY:    DCAA Herndon Branch Office
                171 Elden Street, Suite 315
                Herndon, VA 20170
Telephone                      No.
FAX                      No.
E-m                     ail Address

SUBJECT:        Report on Audit of Noncompliance with CAS 418 and Disclosed Cost
                Accounting Practices, Raytheon Polar Services Company

REFERENCES:     Prime Contract No.: OPP-0000373

CONTRACTOR:     Raytheon Technical Services Company (Cage Code 05WG2)
                12160 Sunrise Valley Drive
                Reston, VA 20191

REPORT RELEASE RESTRICTIONS: See Page 23
                                                                             Page
CONTENTS:       Subject of Audit                                               1
Executive                  Summary                                            1
                Scope of Audit                                                1
                Results of Audit                                               2
                Contractor’s Organization and Systems                         11
                DCAA Personnel and Report Authorization                       22
                Audit Report Distribution and Restrictions                    23
                Contactor’s Written Response - Appendix                       25
Audit Report No. 6161-2005T19200001

                                      SUBJECT OF AUDIT

       Our continuous examination of the contractor’s cost accounting practices during
performance of contracts includes evaluating whether the contractor has complied with the CAS
Board rules, regulations, and standards, and any applicable FAR Part 31 requirements. The
contractor is responsible for compliance with those requirements. Our responsibility is to
express an opinion on compliance based on our examination.


                                   EXECUTIVE SUMMARY

        Raytheon Polar Services Company (RPSC) cost accounting practices are in
noncompliance with CAS 418, Allocability of Direct and Indirect Costs and with disclosed cost
accounting practices (i.e., Disclosure Statement). Specifically, costs that are disclosed as indirect
are recorded and charged direct to the Polar Services contract. Recording and charging these
costs direct to the contract results in 100 percent recovery through contract billings to the
government (i.e., National Science Foundation).


                                       SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the examination to obtain
reasonable assurance about whether the contractor has complied with the requirements referred
to above. An examination includes:

       •   evaluating the contractor's internal controls, assessing control risk, and determining
           the extent of audit testing needed based on the control risk assessment;
       •   examining, on a test basis, evidence supporting the cost accounting practices; and
       •   assessing the actual cost accounting practices and compliance of those practices with
           the disclosed cost accounting practices and applicable requirements.

        We evaluated the contractor’s cost accounting practices used to accumulate contract costs
using the applicable requirements contained in the:

       •   Federal Acquisition Regulation (FAR); and
       •   CAS Board rules, regulations and standards.
Audit Report No. 6161-2005T19200001

       Our examination does not provide a legal determination on the RPSC compliance with
the specified requirements.




       In Audit Report No. 6161-2004T11070201, dated October 4, 2004 DCAA examined the
SAP Accounting System and Control Environment and the related internal control policies and
procedures. Based on our examination we concluded that the SAP Accounting System and
Control Environment and the related internal control polices and procedures are adequate.


                                    RESULTS OF AUDIT

        In our opinion, during this period (January 1, 2000 through December 31, 2002) the
contractor was in noncompliance with CAS 418, Allocation of Direct and Indirect Costs. In
addition, the contractor was in noncompliance with its disclosed cost accounting practices. As of
the date of this report, the condition causing the noncompliance has not been corrected.

       This report is limited to the cited instance(s) of noncompliance. Accordingly, we express
no opinion on whether other practices are proper, approved, or agreed to for pricing proposals,
accumulating costs, or reporting contractor performance data.


             STATEMENT OF CONDITIONS AND RECOMMENDATIONS

       Our examination disclosed that the contractor’s failure to comply with a cost accounting
standards and failure to follow consistently disclosed cost accounting practices has resulted or
may result in increased cost paid by the government. The areas of noncompliance and failure to
follow disclosed practices are stated below:

CONDITION:

        Raytheon Polar Services Company (RPSC) accounting practices relative to recording and
billing selected costs is in noncompliance with one of the fundamental requirements of CAS 418.


                                                2
Audit Report No. 6161-2005T19200001

Specifically, CAS 418-40(a) requires that a business unit shall have a written statement of
accounting policies and practices for classifying costs as direct or indirect and they must be
consistently applied. Our audit found that RPSC did not consistently apply its classification of
costs on the Polar Services contract. In particular, RPSC is:

       •   recording and billing selected costs, disclosed as indirect, direct to the Polar Services
           contract.


       •   reclassifying

                             . See pages 9-10 of this report for a complete list of the reclassified
                                                  , respectively.

        This practice is also in noncompliance with RTSC CAS Disclosure Statement, Revisions
4 through 9C, which were in effect during the fiscal year (FY) 2000 through 2002 time frame. In
particular, Disclosure Statement Item No. 4.1.0 defines the purpose of Business Area Overhead
pool as “
                                                     . The pool is in place to support a particular
function.”

       In addition, the major elements of costs disclosed as a part of the Business Overhead pool
include:

       •

       •


       RPSC proposed and RTSC discloses a separate overhead pool for the collection of
                                                                     .
                                                                                                  .
The Polar Services contract is considered to have multiple final cost objectives due to the various
reporting and funding sources of the customer, The National Science Foundation (NSF).

COST IMPACT:

       During our audit of RPSC FY 2000 through 2002 incurred costs, we reclassified/
questioned                  related to this noncompliance as illustrated below.



                                                 3
Audit Report No. 6161-2005T19200001

       Indirect functions related to                                              charged direct to
the Polar Services contract as follows:

       Fiscal                                         Year                      Total
       WBS Description 2000               2001         2002             Questioned




       Costs allocated from                                        into the
                   were reclassified by RPSC as direct costs to the Polar Services contract as
follows:

      Fiscal                                           Year                       Total
      Allocation 2000                      2001         2002              Questioned




        All costs reclassified/questioned were billed as direct costs. In addition, the contractor
billed the allowable                                                  ceiling amounts. Therefore,
all costs reclassified/questioned as a direct charge would be in excess of the billed indirect
ceilings (overhead and G&A). We will evaluate the impact of this noncompliance for fiscal
years 2003 and 2004 as part of our respective RPSC Incurred Cost audits scheduled to be
performed during GFY 2006.

RECOMMENDATION:

        We recommend that the contractor institute additional control procedures to insure that
costs are consistently applied and/or allocated as either direct or indirect in accordance with its
disclosed cost accounting practices and based on the fundamental requirements of CAS 418. In
addition, we recommend that the contractor develop and implement a plan to monitor the proper
cost classification based on Cost Accounting Standards and its CAS Disclosure Statement of
indirect and other direct costs at all levels of the RPSC business area responsible for cost
classification.

CONTRACTOR’S REACTION:
                                                  4
Audit Report No. 6161-2005T19200001


       The contractor’s written response to our conditions and recommendations is included as
an appendix to this report and summarized in this section of the report.

         The contractor does not agree that the                      costs should be reclassified or
disallowed. First, the contractor believes that Section 3.1.0 of its CAS Disclosure Statement
                                                                                        . Second, the
contractor contends the parties expressly agreed that all                     costs at Polar would be
charged as direct costs to the General Management WBS and that they would not be subject to
the overhead ceiling rate. Third, the contractor believes that the Polar contract, not the WBS, is
the final cost objective based on the CASB definition of a final cost objective. Additionally, the
contractor replied that individual tasks and CLINs under a contract do not necessarily represent
final cost objectives nor is a contractor required to treat them as such for cost accounting
purposes. Fourth, the contractor asserts that it is entitled to decide what a final accumulation
point is in its accounting system. In the RTSC accumulation system, the Polar Services contract
is the final cost objective according to the contractor.

        Concerning the                                                    the contractor asserts that
the Polar business unit was not organized as a separate, stand-alone operation. As a result, Polar
has in effect purchased certain systems and support services from
             and charged the costs for these systems and services to the Polar Services contract in
the form of                  . In addition, the contractor stated that many types of cost

                                            . If those               are treated as overhead, they
cause the actual overhead costs to exceed the capped rates in a way that the contractor does not
believe either party anticipated or intended.

       Finally, the contractor is in the process of developing a separate CAS Disclosure
Statement for Raytheon Polar Services. The Raytheon Technical Services Company CAS
Disclosure Statement Revision 12 for Parts I-IV was recently issued exclusive of Raytheon Polar
Services. The effective date for RTSC revision 12 is January 1, 2005.

AUDITOR’S RESPONSE:

        The contractor’s reaction did not include any information to change our opinion. CAS
418-40(a) requires Polar Services to have a written statement of accounting policies and
practices for classifying costs as direct and indirect and to apply those policies and practices
consistently. These policies and practices are included in the contractor’s CAS Disclosure
Statement applicable to FYs 2001-2002, Revision 9C, Item No. 3.1.0 (Direct vs. Indirect
Criteria). We do not believe that this part of the contractor’s disclosure statement allows it to
charge normally indirect costs direct to the Polar Services contract including the criteria that

                                                  5
Audit Report No. 6161-2005T19200001

states, “Notwithstanding whether a type of charge is marked ‘E’ or ‘F’ [referring to treatment
code in Paragraph 3.2.0] when the circumstances of a particular procurement suggest that a
normally indirect cost would be bid and accumulated as a direct cost, the method employed to
avoid double counting and to maintain compliance with the requirements of CAS 402 will be:
….”

        The Polar RFP required the contractor’s cost or pricing data to follow its disclosed cost
accounting practices (CAS Disclosure Statement). As a result, the RFP (procurement) did not
require any costs normally classified as indirect
                                  to be treated as direct costs to the contract. The Polar RFP and
its requirement for the contractor to follow disclosed cost accounting practices is consistent with
the intent of the CASB when it published comments regarding this issue in Part II, Preambles to
the Related Rules and Regulations Published by the Cost Accounting Standards Board,
Preambles to Part 331, Contract Coverage, Comment No. 11, Additional requirements by
agencies, states that:

                      “…concern was expressed that Federal agencies might require the
               submission of cost proposals in ways inconsistent with the cost accounting
               practices of some or all of the potential offerors. The Board recognizes that this
               has happened in the past, but it notes that Board rules, regulations, and Cost
               Accounting Standards are to be used by relevant Federal agencies as well as by
               subcontractors and contractors, and it believes that henceforth requests for
               proposals must be fully consistent with such rules, regulations, and standards,
               although of course the Federal agency may ask for supplementary information to
               accompany proposals if this is needed to meet the agency’s requirements.”

        In addition, the contract does not include any requirement and/or terms that allows RPSC
to charge normally indirect costs direct to the Polar Services contract. We were never provided
written documentation that substantiated any implied agreement between RPSC and the NSF
Contracting Officer that allowed RPSC to charge normally indirect costs direct to the Polar
Services contract. In fact, RPSC notified the NSF Contracting Officer in a letter dated
April 16, 2001 that it has liquidated advance payments in a manner inconsistent with its
disclosure statement. Specifically, RPSC classified some normally indirect costs

as direct costs. As a result, the NSF Contracting Officer requested the NSF OIG to review the
basis for these classifications by Polar Services and advise if the proposed allocations are
consistent with applicable RTSC Disclosure Statement(s) and otherwise represent allowable,
allocable, and reasonable costs of contract performance.

       Lastly, we believe that the Polar Services contract has multiple final cost objectives in the
form of Work Breakdown Structures (WBS) based on the following:

                                                 6
Audit Report No. 6161-2005T19200001


        (1) The contract has determined that the WBS is the final cost objective. There is a
number of Restricted WBS such as
                           that require the contractor to separately accumulate, report, and bill
costs to NSF. For each WBS, the contractor even tracks and reports by: obligated, advances,
expenditures, available funds, and unliquidated advances in its financial reports to NSF.

        (2) The contractor has determined that the WBS is the final cost objective and one of
the final accumulation points. The CASB definition of a final cost objective states, “Final cost
objective means a cost objective which has allocated to it both direct and indirect costs, and in
the contractor’s accumulation system, is one of the final accumulation points.” The contractor’s
accounting system segregates, accumulates, and bills costs by WBS which includes both direct
and indirect costs as required by the CASB definition of a final cost objective. Also, the
contractor seems to imply that a contract is always the final cost objective. We disagree because
contracts may require task orders/delivery orders which become final cost objectives. In this
case, a contractor typically segregates, accumulates, and bills costs by individual task/delivery
order. Also, these task/delivery orders typically have their own ceiling amounts and the
contractor is responsible for complying with those ceiling amounts. These delivery/task orders
would meet the CASB definition of a final cost objective, as well as the WBS, because they have
allocated to it both direct and indirect costs, and in the contractor’s accumulation system, it has
determined these orders to be final accumulation points.

        (3) The contractor applies a                    to the base costs of each WBS for reporting
and billing costs to NSF. As a result, the WBS has to be the final cost objective because CAS
410 requires that G&A expenses can only be allocated to final cost objectives. According to 48
CFR 9904.410-40(a), the basic requirement of CAS 410 is that G&A expenses be grouped into a
separate indirect cost pool and allocated only to final cost objectives.

        As part of our audit of the contractor’s classification of direct and indirect costs, we
found where RPSC judgmentally selected certain RTSC and Corporate allocations (flow-down
costs) to charge direct to the Polar Services contract while others remained indirect. The
contractor’s actual and disclosed accounting practice is to accumulate all of these
                            in its overhead pool
                                   . We reclassified to the overhead pool
                    that the contractor elected to charge direct to the Polar Services contract. We
are not aware of any other                                                                       and
charge the associated costs direct to the contract.

        In summary, we believe the contractor is in noncompliance with CAS 418-40(a) and has
not followed its disclosed accounting practices which is a requirement of that standard.


                                                 7
Audit Report No. 6161-2005T19200001

         In accordance with FAR 52.230-6(a), within 60 days of the contractor’s agreement to the
initial finding of noncompliance or the CFAO determination of noncompliance, the contractor is
to provide a general dollar magnitude of the noncompliance identifying the potential impact on
the funds of each affected government agency and department.

        The CAS non-compliances were discussed with
as part of the exit conference to the incurred cost audit however, an exit conference specific to
this CAS noncompliance was not held with the contractor. We provided a condition &
recommendation memorandum to the contractor’s representative,
              on April 14, 2005. We received the response to the memorandum on May 17, 2005
from                   . The contractor disagrees with the cited instances on non-compliance and
has provided the same response as was provided for the originating incurred cost audit. The
contractor’s response is included as an appendix to this report.




                                                8
Pages 9-10 have been redacted in their entirety.
Audit Report No. 6161-2005T19200001

                CONTRACTOR’S ORGANIZATION AND SYSTEMS

I.    Organization

      RTSC headquarters is located in Reston, VA.




                                           11
Pages 12-21 have been redacted in their entirety.
Pages 12 through 18 have been redacted in their entirety
Audit Report No. 6161-2005T19200001




   CAS 405: Audit Report No. 6162-2003T19200204, dated June 5, 2003, indicates that the
   contractor’s cost accounting practices are in noncompliance with CAS 405, Accounting for
   Unallowable Costs, and FAR Part 31. Specifically, RTSC is not adequately complying with
   established controls to properly classify and record unallowable costs. In addition, RTSC is
                                             19
Audit Report No. 6161-2005T19200001

   not adequately complying with Raytheon Company policies and procedures for specific cost
   elements that were designed for controlling cost and determining/documenting cost
   allowability and compliance with government regulations. On December 12, 2004, the
   DACO withdrew his initial finding of noncompliance on this issue; stating that “Any
   potential cost impact associated with the Initial Finding will be resolved as part of the
   annual Incurred Cost negotiations.” Nevertheless, we will continue to report DCAA’s CAS
   405 noncompliance audit report until after accomplishment of follow-up compliance and
   transaction testing performed as part of DCAA’s comprehensive audit of RTSC during FY
   2005 to ensure that the reported instances of noncompliance have ceased to exist.

   CAS 418: Audit Report No. 6162-2003T19200205, dated June 5, 2003, indicates that the
   contractor’s cost accounting practices are in noncompliance with CAS 418, Allocability of
   Direct and Indirect Costs.




                                    On December 12, 2004, the DACO withdrew his initial
   finding of noncompliance on this issue stating that “Any potential cost impact associated
   with the Initial Finding will be resolved as part of the annual Incurred Cost negotiations.”
   Nevertheless, we will continue to report DCAA’s CAS 418 noncompliance audit report until
   after accomplishment of follow-up compliance testing performed jointly during DCAA’s in-
   process FY 2005 CAS 418 Compliance and Indirect and Other Direct Cost Internal Control
   System examinations (reference DCAA Audit Assignment Nos. 6161-2005T19403300 and
   6161-2005T14980300 respectively) to ensure that the reported instances of noncompliance
   have ceased to exist.




                                             20
Audit Report No. 6161-2005T19200001




                   Pages 21 has been redacted in its entirety




                                      21
Audit Report No. 6161-2005T19200001

                                      DCAA PERSONNEL

Telephone                                                                        No.
Primary contact(s) regarding this audit:




Other contact regarding this audit report:

                      , Branch Manager

                                                                       FAX No.


                                                                       E-mail Address


General information on audit matters is available at http://www.dcaa.mil/.

AUDIT REPORT AUTHORIZED BY:


                                                            /Signed/


                                                            Branch Manager
                                                            DCAA Herndon Branch Office




                                               22

                                 FOR OFFICIAL USE ONLY
Audit Report No. 6161-2005T19200001

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
 E-m                                                ail Address
Director                                        john.raymond@dcma.mil
ATTN: John Raymond (DCMDE-GVOG)
DCMA – Virginia
10500 Battlefield Parkway, Suite 200
Manassas, VA 20109-2342

Defense Corporate Executive                     John.McGrath@dcma.mil
ATTN: Mr. John McGrath, DCMDI-RO/Raytheon
Defense Contract Management Agency (DCMA)
2 Wayside Road
Burlington MA 01803-0901

National Science Foundation                     kstagner@nsf.gov
ATTN: Ms. Deborah Cureton
Associate Inspector General for Audit
4201 Wilson Boulevard
Arlington, VA 22230

Raytheon Corporate Resident Office
ATTN:
47 Foundry Avenue
Waltham, MA 02453-8313

Raytheon Polar Services Company                 Copy furnished thru CFAO
Raytheon Technical Services Company
12160 Sunrise Valley Drive
Reston, VA 20191




                                        23
Audit Report No. 6161-2005T19200001




                                      24
Audit Report No. 6161-2005T19200001                                          APPENDIX

                         CONTRACTOR’S WRITTEN RESPONSE

        This file contains the contractor’s written response to the CAS noncompliances. There
are two (2) files contained within this correspondence. The contractor submitted the first file,
B0SJ01.1Final.DOC which contains the response submitted for the originating incurred cost
audit. The second file contains the cover letter for the condition and recommendation response
to include further clarification by the contractor.




                                               25
May 17, 2005


         To:               Defense Contract Audit Agency
  Attn                         :
  Mid                          -Atlantic Region Herndon Branch Office
  Bu                         ilding 2, 3rd Floor
  17                         1 Elden Street, Suite 315
  H                         erndon, VA 20170-4810


         Subject:          CAS 418 Noncompliance – Raytheon Polar Services Company

         Reference:        DCAA Audit Report 6161-2005T19200001 dated April 14, 2005


In response to the subject audit report RTSC respectively disagrees that Raytheon Polar Services Company (RPSC)
was i n noncompliance wi th C AS 4 18 d uring t he period not ed i n t he audit re port. I have at tached t he ori ginal
response to the DCAA Audit Rep ort No. 61 61-2004P10160205 th at provides our position with respect t o th e
appropriateness of allocating costs to this contract.

As a m atter of up date, R TSC has i ssued i ts Di sclosure Statement (DS) Revision 12 f or Part s I – I V exclusive o f
RPSC. A sep arate DS fo r R PSC is cu rrently b eing rev iewed an d will b e i ssued acco rdingly. Th is ch ange was
prompted by the joint discussions with both DCAA and DCMA with the intent to provide improved clarity to both
Disclosure State ments r ecognizing t hat RPSC h as un ique cir cumstances r elative to
                 . Additionally, discussions with the National Science Foundation (NSF) and the Inspector General
have been ongoing to resolve any misunderstanding between RTSC and the customer.



Sincerely,




Cc:
Re: Response to DCAA Draft Audit Report No. 6161-2004P10160205

        This letter is the response of Rayt heon Technical Serv ices Com pany LLC (RTSC) to
DCAA Draft Audit Report No. 6161-2004P10160205 dated August 24, 2004. In simple term s,
the Draft Audit Report questions the allo wability of approxim ately                        in costs
allocated to National Science Foundation (NSF) Contract No. OPP 00 00373 (the Contract) in
2000-02. The questioned costs fall into three broad categories: 1) approximately                   in
costs incu rred by RTSC’s Polar Servic es divisi on (Polar) and charged as direct costs of the
Contract; 2) approximately                   in indirect costs in excess of the caps on overhead and
G&A included in the Contrac t; and 3) approxim ately
                                                           . W e believe that it is important to note
at the outset that the                 unallowable over-ceiling costs identified in the Draft Audit
Report have neither been billed to NSF nor recovered in any way and that Polar has no intention
of attempting to recover those costs. We disagree with the conclusions in the Draft Audit Report
on the other two issues for the reasons stated below.

Background

        The Contract is a cost-reim bursement cont ract for services in support of the NSF
scientific mission in A ntarctica. Polar won the contract in a com petition conducted in 1999.
Polar’s predecessor, Antarctic Support Services (ASA), had only one contract and charged all of
its costs direct to that contract . ASA had no indirect cos ts. Because it was a joint venture, its
“parents” d id not allocate “hom e office” cos ts to ASA. When ASA needed supp ort from its
corporate parents, it “purchased ” that support and charged the co sts direct to the predecessor
contract. A lthough NSF’s RFP for the Contract di d not specifically requi re that all costs be
charged d irectly to th e Contract, it was appare nt that the RFP contemplated th at a successo r
contractor would have a sim ilar structure with minimal i ndirect costs. As a result, RTSC’s
proposal was designed to minimize indirect charging and maximize direct charging.



that are classified as indirect costs and allocated to all the contracts in that business unit. In 1999
when RTSC was preparing the p roposal for the Contract, there were a f ew RTSC business un its
that were stand-alone organizati ons, like the contemplated Polar business unit. Like ASA, those
business units cha rged virtually all o f their costs as direct costs. Thos e business units were not
included in the allocation base for most Raytheon corporate and RTSC costs, so they had very
1
          Because the Draft Audit Reports m akes changes in both the ove rhead pool and in the base used t o allocate
the overhead pool, we do not agree with the precise am ounts calculated by DCAA for each category of costs. For
example, b ecause DCAA has err oneously reclassified cer tain                           Po lar fro m d irect co sts to
overhead and because of an undetected error in the 2000 submission, the amount subject to the overhead ca p in the
DCAA report is overstated. On the other hand, we also discovered undetected errors in the incurred cost submission
for 2002 that would increase the amount of ov erhead rendered unallowable by the cap. When the 2000 and 2002
submissions were corrected, the amount of unall owable over-ceiling c ost w ill be approxim ately              . F or
clarity, we have used the amounts in the DCAA Draft Audit Report in this response, but those amounts are incorrect.
low indirect cost rates. RTSC’s proposal      assumed that the Polar       business unit would be
organized on the same basis and that it would




       Based on its expectations about the way that Polar would be organized, RTSC’s proposal




                                                           . RTSC did not expect that its
actual overhead and G&A expenses would exceed the contractual caps by more than        .

        NSF accepted RTSC’s proposal an d the Contract contem plates that
normally charged as indirect costs would be charged directly to the Contract.
                               the terms of the Contract, the Po lar business unit ha s consistently
classified all costs incurred in th e Polar business unit as direct costs. In f act, NSF directed that
Polar charge the locally incurred m anagement costs for Polar to the General Managem ent CLIN
in the Contract and Polar has complied with that direction.

       After the C ontract was awarde d to Polar late in 1999, ASA protested the award. Polar
began perform ance of the Contract shortly afte r award, but the protest continued for m uch of
2000. The protest and uncertainty about the valid ity of the Contract cr eated some confusion
during 2000. The initial award was for a period of fi ve ye ars, with an option for another five
years. NSF has exercised that option and the Contract is currently expected to extend until 2010.


                                                                              . As a result, the
costs allocated to the Contract from Rayt heon and RTSC substantially exceeded the
overhead cap included in the Contract. Becau se NSF directed that Polar use the A SA Annual
Program Plan (APP) to report its costs at the outset of the Contract in early 2000 and because
Polar com plied with that direction,
         After considering various alternatives in early 2001, RTSC decided that some of the costs
being                                                                                            had
expected to incur                     and charge direct to the C ontract. Polar decided to reclassify
some of the costs                                        as other di rect costs (ODCs) and to charge
those costs directly to the Contract rather than including them as overhead costs subject to
             in the Contract. Polar no tified NSF of that decision in a letter dated April 16, 2001,
and identified the types of cost that had been classified as ODCs in that letter. In response to that
letter, NSF told Polar th at the a llowability of its ODCs would be dete rmined after the costs ha d
been audited. The Draft Audit Report, prepared ove r three years thereafter, is the f irst time that
any Governm ent representative has objected to the approach adopted by Polar in 2001. Polar
appreciates this opportunity to explain the rationale for its classification of the costs as ODCs.

         Polar did not classify as ODCs any cost s allocated to the Contract            , nor did it
classify all of the                                                  to the Contract as ODCs. In
fact, the total am ount that Polar has claim ed and recovered on the Contract during the initial 5-
year term of the Contract is approxim ately                    than the actual costs recorded as
indirect costs on the Contract. That                   on the Contract reflects the benefit that NSF
has realized as a result of the contractual caps on G&A and overhead.

       We now turn to the issues raised in the Draft Audit Report.



        We do not believe that DCAA was privy to        the contractu al ag reement re ached b y the
parties, so DCAA may not appreciate the conn ection between that agreement and the d isclosed
and approved practice used by Polar to im plement that agreem ent. The parties clearly and
explicitly agreed that all                 costs would be charged as direct costs on the Contract,
including costs that would normally be indirect. In discussions after award, NSF instructed Polar
to charge normally indirect costs to the                               and Polar has complied with
that instruction. RTSC’s disclosed practice was and is that
                                                                                                    .
Because the parties had specifically agreed that the costs at issue would be charg ed direct, there
was and is a contractual requir ement to charge them direct. In addition, RTSC’s disclosed
practice
               . The costs at issue exclus ively benefit and are identifi ed to the Polar contract.
Accordingly, Polar has com plied with the requ irements of t he Contract, the instructions of its
customer, and                                      .

                                    m akes sense in a situation lik e this where there is only one
contract in the busines s unit and where all                           will ultimately be charged to
that contract, whether charged directly or indirectly.
        The DCAA Draf t Audit Repor t as serts th at Polar m ay not charge the costs at issue
directly to the Contrac t because th ere a re m ultiple “fin al c ost obje ctives” with in the Contrac t.
Under this inte rpretation, because the Contrac t has m ultiple fina l co st objective s, Polar is
required to collect its norm ally indirect costs in an overhead pool and allocate those costs as
overhead to the various final co st objectives within the Contr act. The effect of the DCAA
position is to includ e                                     in th e costs
                       .

       There are at least three fundam ental probl ems with this positi on. First, and most
important, it is com pletely inconsistent w ith the understanding of the parties and the
requirements of the Contract. The part ies expressly agreed that all

                                . Even if DCAA were correct about the existence of multip le final
cost objectives, the assertion that the costs at issue should be s ubject to the ove rhead cap would
be inconsistent with the parties’ express and clear agreement.

        The second problem with the DCAA position is that the Contract is a single final cost
objective. The term “final cost objective” is defined in the CAS regulations as follows:
               Final cost o bjective means a cost objective which has alloc ated to
               it both direct and indirect cost      s, and in the contractor’s
               accumulation system is one of the final accumulation points.
48 C.F.R. § 9904.402-30(a)(4). Under that defin ition, the contractor is entitled to d ecide what is
a final accumulation point in its system . In RTSC’s accumulation system,
                                                                                             under
                                                           .

        In most circumstances, contracts are final cos t objectives. While we agree with DCAA
that the re a re c ircumstances in w hich a sing le contrac t c ould encom pass m ultiple f inal cost
objectives, this is clearly not one of them. In our experience, contracts that include multiple final
cost objectives are contracts that cover two or m ore distinct a nd d isparate activities, such as
production of goods and a separate design task to develop a variant of that product.

                                                                                         .

        Finally, the parties intended and expre ssly agreed that the                 identified as
unallowable indirect costs would be charged direct to the contract. There is no basis to disallow
that direct cost.

Costs in Excess of the Indirect Cost Caps

       The Draf t Audit Report also id entifies as unallowable and “claim ed over ceiling”
approximately                    in costs that have been allocated to the Contract. We agree with
DCAA that the costs at issue are not allowable. We also agree that the costs have been allocated
to the Contract, as is required by the relevant regul ations and                              , but
we disagree that they have been “claim ed” and they certainly have not been recovered. The
costs are included in the actual incurred cost subm ission and they are charged to the Contract on
Polar’s books of accou nt because th ey are actu al costs and they m ust be recorded on the book s,
but we are aware of no evidence that the costs        have ever been include d in any billing or
otherwise “claimed” by Polar. Polar has no inten tion of claiming or attempting to recover those
costs. W hile the Dr aft Audit Report is cor rect tha t the costs a re u nallowable, it f ails to
acknowledge that Polar has treated them as unallo wable. Moreover, by labeling the costs as
“claimed” the Draft Audit Report creates the erroneous impression that Polar has som ehow tried
to recover the costs. T here is no issue about these costs and the final Audit Report should
acknowledge that fact.

        RTSC made a deal with NSF about the unallow ability of indirect costs in excess of the
caps included in the Contract. Polar has lived up to that deal and is not com plaining about the
impact of the caps on indirect co sts as they w ere reasonably anticip ated when th e caps were
proposed and negotiated. What we disagree with is the application of the caps to
        that were expressly excluded from the application of the caps in RTSC’s proposal,
discussed in the section above, and application    of the caps to costs th at RTSC anticipated
incurring locally, discussed in the next section.

Other Direct Costs

        The final category of co sts addressed in th e Draft Audit Re port raises more com plicated
issues, but it is equally without m erit. The prin cipal reason that we requested additional tim e to
respond to the Draft Audit Report was because we wanted to be su re that we und erstood the
issues related to ODCs and were comfortable w ith the Company’s position on those issues. W e
retained outside counsel and a m ajor accounting firm to review the Company’s position. Their
review is now substantially com plete and they have concluded that the Com pany’s position
reflects a f air attem pt to im plement the orig inal in tent of the Contract in light of the way that
circumstances have changed since award.

       As explained above, the proposal for the Contract and the rate caps in the contract w ere
based on express assumptions about the nature of the costs that would b e included in the capped
overhead rates. RTSC’s




                                                                                       The cost
proposal for the Contract origin ally assum ed that there would be sim ilar arrangements for the
Polar business unit and that such costs would be     incurred locally and charged dir ectly to the
Contract, as provided in the Contract and in                                .
                . As a result, Polar has in effect purch ased certain system s and support services
from
               . As a result, m any types of cost that RTSC expected to                         and
charge direct to the Contract have instead been charged as
            . If those                are treated as overhead, they cause the actual overhead costs
to exceed th e capped rates in a way that we do not believe either party anticipated or intend ed.
When Polar realized late in 2000 what had happened, it reviewed the various options available to
it and decided that the best way to i       mplement the parties’ intent would be to reclassify
appropriate overhead costs as ODCs, charged directly to the contract as th e parties expected and
intended.

        It is important to note that Polar did not reclassify any                                 , even
though the actual             rate has substantially exceeded the capped rate                 . Nor has
Polar reclas sified all of the overhead costs in     excess of the capped rates. Even after the
reclassification of som e overhead costs, th e actu al rates are stil l sub stantially in exc ess of the
capped rates. NSF has received the benefit of the corporate a nd RTSC systems and support, but
it would not be required to pay for that benefit if the costs were classified as overhead.

        In order to correct that obvious inequity a nd to implement what we believe to have bee n
the intent of both parties, we attempted to iden tify costs
         that were, in essence, replacem ents for cost s that both parties had anticipated would be
incurred                                                        and charged di rect to the Contract.
We believe that we hav e rec lassified costs f airly in a way that is cons istent with the parties ’
original intent, but we also recognize that the reclassification involved an exercise of judgm ent
and that reasonable people m ight disagree about how that judgm ent should be exercised. W e
disclosed what we intended to do and why we intended to do it fully and completely to NSF in a
letter dated April 16, 2001. NSF neither accepted nor rejected our solution to the problem we
were facing, but indicate d that the appropriatene ss of the reclassificati ons would have to be
determined after an aud it. Now, over thre e years later, th ere has f inally been an audit. W e do
not believe that the DCAA position that a ll of th e costs at issue m ust rem ain in overhead, no
matter what the parties intended or what is fair in the circumstances, is a supportable position.

Conclusion

        The audit findings concerning                                and “claimed over ceiling” costs
should be withdrawn. They are demonstrably wrong. The audit finding that none of the ODCs
at issue are properly classified as direct costs is also incorrect, but we recognize that the am ounts
so classified are a m atter of judgm ent and we fu lly expect them to be the subject of negotiation
between the parties.
